                                      76434                 Federal Register / Vol. 77, No. 249 / Friday, December 28, 2012 / Proposed Rules

                                      approval of WDNR’s PSD SIP to not                          In addition, this rule does not have               Office of Inspector General,
                                      cover the applicability of PSD to GHG-                  tribal implications as specified by                   Congressional and Regulatory Affairs,
                                      emitting sources below the Tailoring                    Executive Order 13175 (65 FR 67249,                   Department of Health and Human
                                      Rule thresholds, is no longer necessary.                November 9, 2000), because the SIP is                 Services, Attention: OIG–121–N, Room
                                      In this proposed action, EPA is also                    not approved to apply in Indian country               5541C, Cohen Building, 330
                                      proposing to amend 40 CFR 52.2572 to                    located in the state, and EPA notes that              Independence Avenue SW.,
                                      remove this unnecessary regulatory                      it will not impose substantial direct                 Washington, DC 20201. Please allow
                                      language.                                               costs on tribal governments or preempt                sufficient time for mailed comments to
                                                                                              tribal law.                                           be received before the close of the
                                      VI. Statutory and Executive Order
                                                                                                                                                    comment period.
                                      Reviews                                                 List of Subjects in 40 CFR Part 52                       3. By hand or courier. If you prefer,
                                         Under the CAA, the Administrator is                    Environmental protection, Air                       you may deliver, by hand or courier,
                                      required to approve a SIP submission                    pollution control, Incorporation by                   your written comments before the close
                                      that complies with the provisions of the                reference, Intergovernmental relations,               of the comment period to Patrice Drew,
                                      CAA and applicable Federal regulations.                 and Reporting and recordkeeping                       Office of Inspector General, Department
                                      42 U.S.C. 7410(k); 40 CFR 52.02(a).                     requirements.                                         of Health and Human Services, Cohen
                                      Thus, in reviewing SIP submissions,                       Dated: December 17, 2012.                           Building, Room 5541C, 330
                                      EPA’s role is to approve state choices,                 Susan Hedman,                                         Independence Avenue SW.,
                                      provided that they meet the criteria of                                                                       Washington, DC 20201. Because access
                                                                                              Regional Administrator, Region 5.
                                      the CAA. Accordingly, this action                                                                             to the interior of the Cohen Building is
                                                                                              [FR Doc. 2012–31191 Filed 12–27–12; 8:45 am]
                                      merely approves state law as meeting                                                                          not readily available to persons without
                                                                                              BILLING CODE 6560–50–P
                                      Federal requirements and does not                                                                             Federal Government identification,
                                      impose additional requirements beyond                                                                         commenters are encouraged to schedule
                                      those imposed by state law. For that                                                                          their delivery with one of our staff
                                      reason, this action:                                    DEPARTMENT OF HEALTH AND                              members at (202) 619–1368.
                                         • Is not a ‘‘significant regulatory                  HUMAN SERVICES                                           For information on viewing public
                                      action’’ subject to review by the Office                                                                      comments, please see the
                                                                                              Office of Inspector General                           Supplementary Information section.
                                      of Management and Budget under
                                      Executive Order 12866 (58 FR 51735,                                                                           FOR FURTHER INFORMATION CONTACT:
                                                                                              42 CFR Part 1001
                                      October 4, 1993);                                                                                             Patrice Drew, Congressional and
                                         • Does not impose an information                     Solicitation of New Safe Harbors and                  Regulatory Affairs Liaison, Office of
                                      collection burden under the provisions                  Special Fraud Alerts                                  Inspector General, (202) 619–1368.
                                      of the Paperwork Reduction Act (44                                                                            SUPPLEMENTARY INFORMATION:
                                      U.S.C. 3501 et seq.);                                   AGENCY:  Office of Inspector General                     Submitting Comments: We welcome
                                         • Is certified as not having a                       (OIG), HHS.                                           comments from the public on
                                      significant economic impact on a                        ACTION: Notice of intent to develop                   recommendations for developing new or
                                      substantial number of small entities                    regulations.                                          revised safe harbors and Special Fraud
                                      under the Regulatory Flexibility Act (5                                                                       Alerts. Please assist us by referencing
                                      U.S.C. 601 et seq.);                                    SUMMARY: In accordance with section                   the file code OIG–121–N.
                                         • Does not contain any unfunded                      205 of the Health Insurance Portability                  Inspection of Public Comments: All
                                      mandate or significantly or uniquely                    and Accountability Act of 1996                        comments received before the end of the
                                      affect small governments, as described                  (HIPAA), this annual notice solicits                  comment period are available for
                                      in the Unfunded Mandates Reform Act                     proposals and recommendations for                     viewing by the public. All comments
                                      of 1995 (Public Law 104–4);                             developing new and modifying existing                 will be posted on http://
                                         • Does not have Federalism                           safe harbor provisions under the Federal              www.regulations.gov as soon as possible
                                      implications as specified in Executive                  anti-kickback statute (section 1128B(b)               after they have been received.
                                      Order 13132 (64 FR 43255, August 10,                    of the Social Security Act), as well as               Comments received timely will also be
                                      1999);                                                  developing new OIG Special Fraud                      available for public inspection as they
                                         • Is not an economically significant                 Alerts.                                               are received at Office of Inspector
                                      regulatory action based on health or                    DATES:   To ensure consideration, public              General, Department of Health and
                                      safety risks subject to Executive Order                 comments must be delivered to the                     Human Services, Cohen Building, 330
                                      13045 (62 FR 19885, April 23, 1997);                    address provided below by no later than               Independence Avenue SW.,
                                         • Is not a significant regulatory action             5 p.m. on February 26, 2013.                          Washington, DC 20201, Monday
                                      subject to Executive Order 13211 (66 FR                 ADDRESSES: In commenting, please refer                through Friday from 9:30 a.m. to 5 p.m.
                                      28355, May 22, 2001);                                   to file code OIG–121–N. Because of staff              To schedule an appointment to view
                                         • Is not subject to requirements of                  and resource limitations, we cannot                   public comments, phone (202) 619–
                                      Section 12(d) of the National                           accept comments by facsimile (fax)                    1368.
                                      Technology Transfer and Advancement                     transmission.                                         I. Background
                                      Act of 1995 (15 U.S.C. 272 note) because                   You may submit comments in one of
                                      application of those requirements would                 three ways (no duplicates, please):                   A. OIG Safe Harbor Provisions
                                      be inconsistent with the CAA; and                          1. Electronically. You may submit                    Section 1128B(b) of the Social
                                         • Does not provide EPA with the                      electronic comments on specific                       Security Act (the Act) (42 U.S.C. 1320a–
                                      discretionary authority to address, as                  recommendations and proposals                         7b(b)) provides criminal penalties for
                                      appropriate, disproportionate human                     through the Federal eRulemaking Portal                individuals or entities that knowingly
tkelley on DSK3SPTVN1PROD with




                                      health or environmental effects, using                  at http://www.regulations.gov.                        and willfully offer, pay, solicit, or
                                      practicable and legally permissible                        2. By regular, express, or overnight               receive remuneration to induce or
                                      methods, under Executive Order 12898                    mail. You may send written comments                   reward business reimbursable under the
                                      (59 FR 7629, February 16, 1994).                        to the following address: Patrice Drew,               Federal health care programs. The


                                 VerDate Mar<15>2010   19:23 Dec 27, 2012   Jkt 229001   PO 00000   Frm 00009   Fmt 4702   Sfmt 4702   E:\FR\FM\28DEP1.SGM   28DEP1
                                                            Federal Register / Vol. 77, No. 249 / Friday, December 28, 2012 / Proposed Rules                                               76435

                                      offense is classified as a felony and is                agencies, and those in the health care                factors in reviewing proposals for new
                                      punishable by fines of up to $25,000                    industry.                                             or modified safe harbor provisions, such
                                      and imprisonment for up to 5 years. OIG                                                                       as the extent to which the proposals
                                                                                              C. Section 205 of the Health Insurance
                                      may also impose civil money penalties,                                                                        would affect an increase or decrease in:
                                                                                              Portability and Accountability Act of
                                      in accordance with section 1128A(a)(7)                                                                          • Access to health care services,
                                                                                              1996
                                      of the Act (42 U.S.C. 1320a–7a(a)(7)), or                                                                       • The quality of health care services,
                                      exclusion from the Federal health care                     Section 205 of the Health Insurance                  • Patient freedom of choice among
                                      programs, in accordance with section                    Portability and Accountability Act of                 health care providers,
                                      1128(b)(7) of the Act (42 U.S.C. 1320a–                 1996 (HIPAA), Public Law 104–191                        • Competition among health care
                                      7(b)(7)).                                               § 205, the Act, § 1128D, 42 U.S.C.                    providers,
                                        Since the statute on its face is so                   1320a–7d, requires the Department to                    • The cost to Federal health care
                                      broad, concern has been expressed for                   develop and publish an annual notice in               programs,
                                      many years that some relatively                         the Federal Register formally soliciting                • The potential overutilization of
                                      innocuous commercial arrangements                       proposals for modifying existing safe                 health care services, and
                                      may be subject to criminal prosecution                  harbors to the anti-kickback statute and                • The ability of health care facilities
                                      or administrative sanction. In response                 for developing new safe harbors and                   to provide services in medically
                                      to the above concern, section 14 of the                 Special Fraud Alerts.                                 underserved areas or to medically
                                                                                                 In developing safe harbors for a                   underserved populations.
                                      Medicare and Medicaid Patient and
                                                                                              criminal statute, OIG is required to                    In addition, we will also take into
                                      Program Protection Act of 1987, Public
                                                                                              engage in a thorough review of the range              consideration other factors, including,
                                      Law 100–93 § 14, the Act, § 1128B(b), 42
                                                                                              of factual circumstances that may fall                for example, the existence (or
                                      U.S.C. 1320a-7b(b), specifically required               within the proposed safe harbor subject
                                      the development and promulgation of                                                                           nonexistence) of any potential financial
                                                                                              area so as to uncover potential                       benefit to health care professionals or
                                      regulations, the so-called ‘‘safe harbor’’              opportunities for fraud and abuse. Only
                                      provisions, specifying various payment                                                                        providers that may take into account
                                                                                              then can OIG determine, in consultation               their decisions whether to (1) order a
                                      and business practices that, although                   with the Department of Justice, whether
                                      potentially capable of inducing referrals                                                                     health care item or service or (2) arrange
                                                                                              it can effectively develop regulatory                 for a referral of health care items or
                                      of business reimbursable under the                      limitations and controls that will permit
                                      Federal health care programs, would not                                                                       services to a particular practitioner or
                                                                                              beneficial and innocuous arrangements
                                      be treated as criminal offenses under the                                                                     provider.
                                                                                              within a subject area while, at the same
                                      anti-kickback statute and would not                     time, protecting the Federal health care              B. Criteria for Developing Special Fraud
                                      serve as a basis for administrative                     programs and their beneficiaries from                 Alerts
                                      sanctions. OIG safe harbor provisions                   abusive practices.
                                      have been developed ‘‘to limit the reach                                                                        In determining whether to issue
                                      of the statute somewhat by permitting                   II. Solicitation of Additional New                    additional Special Fraud Alerts, we will
                                      certain non-abusive arrangements, while                 Recommendations and Proposals                         consider whether, and to what extent,
                                      encouraging beneficial and innocuous                       In accordance with the requirements                the practices that would be identified in
                                      arrangements’’ (56 FR 35952, July 29,                   of section 205 of HIPAA, OIG last                     a new Special Fraud Alert may result in
                                      1991). Health care providers and others                 published a Federal Register                          any of the consequences set forth above,
                                      may voluntarily seek to comply with                     solicitation notice for developing new                as well as the volume and frequency of
                                      these provisions so that they have the                  safe harbors and Special Fraud Alerts on              the conduct that would be identified in
                                      assurance that their business practices                 December 29, 2011 (76 FR 89104). As                   the Special Fraud Alert.
                                      will not be subject to liability under the              required under section 205, a status                    Dated: December 20, 2012.
                                      anti-kickback statute or related                        report of the public comments received                Daniel R. Levinson,
                                      administrative authorities. The OIG safe                in response to that notice is set forth in            Inspector General.
                                      harbor regulations are found at 42 CFR                  Appendix F.1 OIG is not seeking                       [FR Doc. 2012–31107 Filed 12–27–12; 8:45 am]
                                      part 1001.                                              additional public comment on the                      BILLING CODE 4152–01–P
                                                                                              proposals listed in Appendix F at this
                                      B. OIG Special Fraud Alerts
                                                                                              time. Rather, this notice seeks
                                        OIG has also periodically issued                      additional recommendations regarding
                                                                                                                                                    FEDERAL COMMUNICATIONS
                                      Special Fraud Alerts to give continuing                 the development of new or modified
                                                                                                                                                    COMMISSION
                                      guidance to health care providers with                  safe harbor regulations and new Special
                                      respect to practices OIG finds                          Fraud Alerts beyond those summarized                  47 CFR Part 54
                                      potentially fraudulent or abusive. The                  in Appendix F.
                                      Special Fraud Alerts encourage industry                    A detailed explanation of                          [WC Docket No. 10–90; FCC 12–138]
                                      compliance by giving providers                          justifications for, or empirical data
                                      guidance that can be applied to their                   supporting, a suggestion for a safe                   Connect America Fund
                                      own practices. OIG Special Fraud Alerts                 harbor or Special Fraud Alert would be                AGENCY:  Federal Communications
                                      are intended for extensive distribution                 helpful and should, if possible, be                   Commission.
                                      directly to the health care provider                    included in any response to this
                                                                                                                                                    ACTION: Proposed rule.
                                      community, as well as to those charged                  solicitation.
                                      with administering the Federal health                   A. Criteria for Modifying and                         SUMMARY: In this document, the Federal
                                      care programs.                                          Establishing Safe Harbor Provisions                   Communications Commission seeks
                                        In developing Special Fraud Alerts,                                                                         comment in this Further Notice of
                                                                                                In accordance with section 205 of
                                      OIG has relied on a number of sources                                                                         Proposed Rulemaking on potential
tkelley on DSK3SPTVN1PROD with




                                                                                              HIPAA, we will consider a number of
                                      and has consulted directly with experts                                                                       modifications to the rules governing
                                      in the subject field, including those                     1 The OIG Semiannual Report to Congress can be
                                                                                                                                                    Connect America Phase I incremental
                                      within OIG, other agencies of the                       accessed through the OIG Web site at http://          support to further accelerate the
                                      Department, other Federal and State                     oig.hhs.gov/publications/semiannual.asp.              deployment of broadband facilities to


                                 VerDate Mar<15>2010   19:23 Dec 27, 2012   Jkt 229001   PO 00000   Frm 00010   Fmt 4702   Sfmt 4702   E:\FR\FM\28DEP1.SGM   28DEP1
